   March 29, 2002




Financial
Management
Funding Invoices to Expedite the
Closure of Contracts Before
Transitioning to a New DoD
Payment System
(D-2002-076)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
DPPS                  Defense Procurement Payment System
FMR                   Financial Management Regulation
MOCAS                 Mechanization of Contract Administration Service
USD(C)                Under Secretary of Defense, Comptroller
                        Office of the Inspector General, DoD
Report No. D–2002-076                                                     March 29, 2002
  (Project No. D2000FJ-0268.001)

           Funding Invoices to Expedite the Closure of Contracts
            Before Transitioning to a New DoD Payment System

                                   Executive Summary

Introduction. The Defense Finance and Accounting Service (DFAS) plans to replace
the payment and entitlement function performed by the Mechanization of Contract
Administration Services (MOCAS) system with a new system, the Defense Procurement
Payment System. To facilitate this transition, the Deputy Secretary of Defense directed
the Military Departments and the Defense Contract Management Agency to develop
comprehensive plans for closing out all completed contracts. Plans for the orderly
transition from MOCAS to the Defense Procurement Payment System for contracts with
continuing requirements were also to be developed. DFAS was to assist in reengineering
the reconciliation process and developing procedures to support the retirement of
MOCAS. Also, DFAS was to assist in the close out process for all completed contracts.
At the time of audit, 116,563 contracts were pending closure. Of the 116,563 contracts,
3,954 may require current-year funding before a contract payment can be made.

Objectives. The overall audit objective was to evaluate actions to close out completed
contracts and transition them from MOCAS to Defense Procurement Payment System.
We focused this part of the audit on the policy and procedures for closing out contracts
that require current-year funds because the original funding appropriation had been
canceled.

Results. DFAS and DoD Components did not take sufficient actions to fund payments
on outstanding contract invoices that would permit closing contracts. DFAS Columbus
did not notify DoD Components timely that funding was needed to close contracts where
original funding had been canceled. Also, DoD Components were not providing timely
current-year funding to DFAS. MOCAS records showed that 3,954 contracts could
require as much as $97 million in current-year funding to pay invoices and close the
contracts. Two of the invoices have required funding since 1993. Unless improvements
are made, DoD will have a large number of contracts requiring current-year funds when it
begins the transfer of MOCAS data to the new payment system. This could adversely
affect its orderly transition. Additionally, the DoD incurred unnecessary costs because of
the untimely payments for those invoices awaiting funds, to include approximately
$215,429 in prompt payment interest penalties on invoices we reviewed.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) revise the DoD Regulation 7000.14-R “Financial Management
Regulation,” volume 3, chapter 10, “Accounting Requirements for Expired and Closed
Accounts,” updated January 31, 2001, to require that the gaining DoD activity of a
program be responsible for providing the appropriate fund sites for invoices that would
otherwise require disbursement from canceled appropriations. We recommend that the
Director, DFAS develop new policy and procedures to require that fund holders are
notified promptly whenever invoices that could need current-year funding are received.
We also recommend that the Director, DFAS monitor and provide monthly reports to the
DoD Components’ financial management and comptroller offices identifying outstanding
requests for current-year funding.

Management Comments. The Under Secretary of Defense (Comptroller) agreed to
revise the DoD Financial Management Regulation concerning responsibility for
providing funds. The Director, DFAS Columbus, non-concurred with development of
new policies and procedures for notification of fund holders that invoices required
current-year funding, and partially concurred with monitoring compliance with time
frames established by the Under Secretary of Defense (Comptroller). The Director,
DFAS Columbus, proposed conducting a pilot program to study early notification of fund
holders, with the objective of reducing the time required to obtain replacement funds.
The Director, DFAS Columbus, partially concurred with notifying the responsible DoD
Components’ financial management and comptroller offices of outstanding requests for
current-year funds. The Director stated that DFAS Columbus was already in compliance,
but will increase its efforts by alerting financial managers of canceled invoices sent to
fund holders as part of the proposed pilot program. See the Finding section of the report
for a discussion of management comments and the Management Comments section for
the complete text of the comments.

Audit Response. Comments on the recommendations from the Under Secretary of
Defense (Comptroller) were responsive. As a result of the comments and proposed
DFAS Columbus action, we deleted our recommendation to establish new time frames
for DoD Components to provide current-year funding. Comments from the Director,
DFAS Columbus, on the draft of this report were responsive. Although the Director,
DFAS Columbus, non-concurred with the development of new policies and procedures
for notifying fund holders of outstanding invoices requiring current-year funding, the
Director proposed alternative actions that are responsive. We believe the proposed pilot
program is an acceptable method for testing whether more aggressive actions to obtain
current-year funding will be effective. We believe improvements in obtaining current-
year funding will help expedite the closure of contracts while DFAS transitions to the
Defense Procurement Payment System.




                                            ii
Table of Contents

Executive Summary                                              i


Introduction
     Background                                                1
     Objective                                                 1

Finding
     Current-Year Funding Requirements for Contract Closure   2


Appendixes
     A. Audit Process
         Scope and Methodology                                 9
         Management Control Program Review                     9
         Prior Coverage                                       10
     B. Report Distribution                                   11


Management Comments
     Under Secretary of Defense (Comptroller)                 13
     Defense Finance and Accounting Service, Columbus         14
Background
    Introduction. The Defense Finance and Accounting Service (DFAS) was
    scheduled to begin replacement of the Mechanization of Contract Administration
    Services (MOCAS) with the Defense Procurement Payment System (DPPS)
    during FY 2001. This has now slipped to FY 2002 or beyond. The replacement
    of MOCAS with DPPS is a part of the overall plan to modernize and standardize
    contract and vendor pay. The replacement system was expected to help achieve
    the goal of eliminating unmatched disbursements and negative unliquidated
    obligations. To facilitate the transition, the Deputy Secretary of Defense directed
    the Military Departments and the Defense Contract Management Agency to
    develop comprehensive plans for closing out all completed contracts. The
    comprehensive plans would also ensure orderly transition from MOCAS to DPPS
    for contracts with continuing requirements. DFAS was to assist in reengineering
    the reconciliation process and developing procedures to support the retirement of
    MOCAS. Also, DFAS was to assist in the close out of all contracts for which
    performance has been completed. In order to integrate and coordinate the
    reconciliation, closeout, and conversion of MOCAS contracts, the Deputy
    Secretary of Defense also directed the establishment of a DoD-wide Integrated
    Process Team. The Integrated Process Team was monitoring and reporting
    progress on the closeout and conversion of the MOCAS contracts.

    Current-year Funding on Canceled Appropriations. Annual appropriations
    are available for obligation for the fiscal year that they are appropriated;
    thereafter, they expire and are available only for adjustments. After 5 years the
    appropriation accounts are closed and the appropriation balances are canceled. A
    fixed appropriation account shall be canceled and is not available for obligation or
    further adjustment for any purpose. Contracts not closed out by the time the
    funding appropriation cancels may require current-year funds to complete the
    closure process. Overall, the MOCAS database had more than 169,000 line items
    with a Canceled Fund Indicator code on 3,954 contracts. Those contracts showed
    an unliquidated obligation value of approximately $97 million. Those contracts
    may require current-year funding for contract payments in order to begin the
    closeout process. Any invoices received that require current-year funding are
    subject to the Prompt Payment Act and can accrue interest penalties for up to a
    year.

Objective
    The overall audit objective was to evaluate actions to close out completed
    contracts and transition them from MOCAS to DPPS. We focused this part of the
    audit on the policy and procedures for closing out contracts that require current-
    year funds because the original funding appropriation had been canceled. The
    DoD management control program relating to the contract closure process was
    addressed in our Inspector General, DoD, Report No. D-2002-027, “Closing
    Overage Contracts Prior to Fielding a New DoD Contractor Payment System,”
    December 19, 2001. See Appendix A for a discussion of the audit scope and
    methodology.

                                         1
           Current-Year Funding Requirements for
           Contract Closure
           MOCAS records showed that 3,954 contracts could require approximately
           $97 million for contract payments. Those payments cannot be made
           without current-year funding because the original funding appropriation
           has been canceled. However, the process used for obtaining current-year
           funding in a timely manner needed improvement. Specifically, DoD
           Components (the Military Services and Defense Agencies) were not
           notified that an invoice requiring current-year funding was received by
           DFAS Columbus for an average of 282 days. Additionally, DoD
           Components were not providing current-year funding timely after
           notification. Those conditions occurred because DFAS policy and
           procedures did not require prompt notification of responsible fund holders
           once an invoice that could require current-year funding was received. The
           DoD Financial Management Regulation (FMR) needed to be revised to
           correct the designation of the appropriate site for obtaining current-year
           funding for transferred programs. Unless improvements are made, DoD
           will have a large number of contracts requiring current-year funds when it
           begins the transfer of MOCAS data to DPPS. This could adversely affect
           its orderly transition. Also, the DoD incurred approximately $215,429 in
           prompt payment interest penalties for those items selected for review
           during the audit.

Guidance
    Laws and Regulations. Section 1405(a) of Public Law Number 101-510, the
    Defense Authorization Act for FY 1991, amended sections 1551-1557, title 31,
    United States Code (31 U.S.C. 1551-1557) addresses the issue of expired
    appropriations and closed accounts. According to 31 U.S.C. section 1553(b)(1),
    once a fixed appropriation has been canceled:
               “Obligations and adjustments to obligations that would have been
               properly chargeable to that account, both as to purpose and in amount,
               before closing and that are not otherwise chargeable to any current
               appropriation account of the agency may be charged to any current
               appropriation account of the agency available for the same purpose."

    The authority to charge a current appropriation is limited. Also, 31 U.S.C.
    section 1553 provides that the cumulative total of old obligations payable from
    current appropriations may not exceed one percent of the current appropriation.

    DoD Financial Management Regulation (FMR). The DoD Financial
    Management Regulation, volume 3, chapter 10, “Accounting Requirements for
    Expired and Closed Accounts,” updated January 31, 2001, implements certain
    provisions of 31 U.S.C. relating to expired and closed accounts. It provides the
    following requirement in section 100201, paragraph D.


                                            2
               Before an account closes, the affected DoD Component shall identify
               valid unliquidated obligations subject to cancellation to determine if (1)
               appropriations are available for future adjustments or payments against
               such obligations, or (2) other provisions for adequate resources have
               been made to pay for such obligations that will cancel with an account.

    The DoD FMR, volume 3, chapter 10, appendix B, number 6, effective September
    2000, also provides guidance regarding the process for the payment office to
    request current-year funds. Specifically, it states that notification should be made
    within 48 hours after receipt of an invoice payable from canceled funds to the
    head of the office, installation, or activity in which the budget office is located of
    the need for funds. The office, installation, or activity funding the contract has
    15 calendar days to provide replacement funds from current appropriations
    available for the same purpose. If funds cannot be provided, the office,
    installation, or activity must provide an estimate of when the funds may be
    expected within the 15-day period.

Current-Year Funding Requirements
    MOCAS records revealed that 3,954 contracts may require upwards of
    $97 million for contract payments. The payments can not be made without
    current-year funding because the original funding appropriation account has
    closed. However, the process used for obtaining current-year funding, in a timely
    manner, needed improvement.

    DFAS Notification Policy and Procedures. As of March 2001, DFAS
    Columbus had 471 invoices on hand that required current-year funding for
    payment. Review of those 471 invoices disclosed that the DoD Components were
    not notified that an invoice requiring current-year funding was received by DFAS
    Columbus for an average of 282 days. Two invoices had been awaiting current-
    year funding for contact payment since calendar year 1993.

    Because the DoD FMR requires notification within 48 hours after receipt of an
    invoice that is payable from canceled funds, we questioned DFAS Columbus
    about the extended delays. The delays occurred between receipt of an invoice
    requiring current-year funds and initial notification of the responsible fund holder.
    DFAS Columbus personnel stated that until they are allowed to take the necessary
    time to determine whether an invoice is valid and payable from a canceled
    appropriation, early notification is not warranted.

    DFAS Columbus explained that when an invoice is initially received, it usually
    takes from two to three days before it is entered into MOCAS. The Prompt
    Payment Act requires the review and return of improper invoices as soon as
    practicable, but no later than 7 days after receipt. DFAS Columbus acknowledged
    that they do not process invoices within 7 days of receipt, and they advised that
    the process to determine whether an invoice requires reconciliation could take
    several weeks and in some cases, years.

    We believe that the DoD Component responsible for providing current-year
    funding and DFAS Columbus would benefit from more timely notification of

                                              3
     receipt of invoices that could require current-year funding. The Prompt Payment
     Act allows seven days to determine whether an invoice is proper. We believe that
     seven days is a reasonable amount of time to notify both the contractor of a
     material defect with an invoice, and to notify a fund holder that an invoice has
     been received that might affect current-year funds. This notification would allow
     the fund holder to begin working with DFAS to determine whether the invoice
     should be paid. To illustrate how this can work more efficiently, we noted the
     following example. One of our sample MOCAS contracts (Contract No.
     DAAH01-83-C-A144) could have been closed several years earlier had DFAS
     Columbus provided timely notification to the Army Aviation and Missile
     Command. Although DFAS Columbus received an invoice for final payment on
     July 6, 1994, it did not send out an initial request for $11,016 in current-year
     funding until April 29, 1999, a delay of almost 5 years. Subsequently, the Army
     Aviation and Missile Command personnel notified DFAS Columbus that the
     contract, according to their records, had already been fully obligated, disbursed,
     and should have been closed. Ultimately, Army records were shown to be
     accurate.

     Prompt Payment Interest. Delaying notification to the responsible DoD
     Component fund holder increases the likelihood that prompt payment interest
     penalties could accrue. For example, DFAS Columbus received an invoice
     requiring $1,808,367 in current-year funds for Air Force contract number
     F19628-93-C-0033 on September 23, 1998. However, initial notification to the
     Air Force fund holder was not made until January 12, 2001, a delay of 894 days.
     Because of the extended delays, prompt payment interest penalties of
     approximately $106,442 had accrued. In total, for the 60 invoices we selected for
     a detailed review, DFAS Columbus estimated that it would incur prompt payment
     interest penalties of approximately $215,429. Timely notification to the
     responsible DoD Components fund holder might have decreased the accrual of
     interest penalties.

Designating Funding Responsibility
     The DoD FMR needs to be revised to correct the designation of the appropriate
     site for obtaining current-year funding for transferred programs. The FMR,
     volume 3, chapter 10, appendix B, number 7, discusses which DoD activity is
     responsible for payment of invoices chargeable to an appropriation that has closed
     for transferred programs. It states:
                Invoices chargeable to an appropriation account that has since closed
                pursuant to the closing account law, 31 United States Code., 1551-
                1557, and for which the related program or function has migrated from
                one DoD activity to another, are payable by the parent organization of
                the DoD activity which incurred the original liability. Current year
                funds from any appropriation account available for the same purpose
                may be used to satisfy the obligations.




                                             4
    However, the Military Services and DFAS personnel discussed the
    appropriateness of this policy and agreed that if a program migrated from one
    activity to another, the new activity should be responsible for current-year funding
    requirements. The primary reason was that the activity assuming responsibility
    for a program also receives the appropriation to fund that program. For example,
    when the Joint Cruise Air Missile Program transferred from the Navy to the
    Air Force, the appropriation to fund the program also transferred.

Actions on Providing Current-Year Funding
    The DoD Components need to provide current-year funding for invoices on
    canceled appropriations in a more efficient and timely manner. Our review
    showed that DoD Components took an average of 46 days to provide requested
    current-year funding. Of the 402 requests we reviewed for current-year funding,
    390 were made by DFAS Columbus from June through September 2000. The
    remaining 12 requests were withdrawn as invalid. The time used by DoD
    Components to provide a current-year fund site ranged from a low of 1 day to a
    high of 188 days. The following table shows the number of days taken to provide
    the funding for the requests reviewed.



                           Days To Provide Funding Documents

                         Range of Days to Fund           Total Count
                         10 days or less                     82
                         11 – 15 days                        17
                         16 – 30 days                        86
                         Greater than 30 days               205

                                  TOTAL                      390

    As shown above, 291 of the 390 (75 percent) requests for current-year funding
    were not satisfied within the 15 days, as currently required by the DoD FMR,
    volume 3, chapter 10, appendix B, number 6. To meet the 15 day requirement,
    we believe DFAS Columbus should provide and monitor monthly status reports to
    the responsible DoD Component financial management and comptroller offices.
    Those monthly status reports should improve the timeliness of receipt of current-
    year funding of all requests not satisfied within the 15-day time frame.

Summary
    The process for obtaining current-year funding for contract payments on canceled
    appropriations needed improvement. DoD Components were not notified that an
    invoice requiring current-year funding was received by DFAS Columbus for an
    average of 282 days. The DoD FMR needs to be revised to correct the
    designation of the appropriate fund holder for obtaining current-year funding for
    programs transferred among activities. Finally, DFAS Columbus should provide
    monthly reports to the respective financial management and comptroller offices

                                         5
    identifying which requests are still open. Unless improvements are made, DoD
    will have a large number of contracts requiring current-year funds when it begins
    the transfer of MOCAS data to DPPS. This could adversely affect its orderly
    transition.

Management Comments on the Finding and Audit Response
    Management Comments. The Director, Defense Finance and Accounting
    Service Columbus stated that the reference to the Prompt Payment Act in the
    body of the report is only applicable when the payment clock starts for interest
    penalties and was not relevant in this situation.

    Audit Response. Our point regarding the Prompt Payment Act is to use it as a
    benchmark. We believe that if a fund holder is notified within 7 days of an
    invoice potentially requiring current-year funds, the fund holder can help
    determine whether the invoice is valid. This process would mimic the
    requirement of the Prompt Payment Act, which requires that DFAS notify the
    contractor within seven days if there is a material defect in an invoice. As shown
    in the example we provided in the report, once the Army Aviation and Missile
    Command obtained the invoice, the Army determined that the invoice that DFAS
    held for almost five years was not valid. With prompt notification, this could
    have been done much earlier and the contract could have been closed.

Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. As a result of management
    comments, we deleted Draft Recommendation 1.a. and renumbered Draft
    Recommendation 1.b. as Recommendation 1.

    1. We recommend that the Under Secretary of Defense (Comptroller) revise
    the wording in the DoD Regulation 7000.14-R, "DoD Financial Management
    Regulation," volume 3, chapter 10, appendix B, number 7, to require that the
    current DoD activity to which a program has transferred be responsible for
    providing current-year funding.

    Under Secretary of Defense (Comptroller) Comments. The Under Secretary
    of Defense (Comptroller) concurred and stated efforts are underway to revise
    DoD Regulation 7000.14-R, "DoD Financial Management Regulation" volume 3,
    chapter 10, Appendix B, number 7, “Accounting Requirements for Expired and
    Closed Accounts,” updated January 31, 2001, to require that the DoD activity to
    which a program has transferred be responsible for providing current-year
    funding. The action is expected to be complete by June 2002.




                                         6
2. We recommend that the Director, Defense Finance and Accounting
Service:

   a. Develop a new policy and new procedures to provide timely
notification to the fund holder of record of any invoices received that may
require current-year funding.

Director, Defense Finance and Accounting Service, Columbus, Comments.
The Director, DFAS Columbus, non-concurred and stated that it would be
virtually impossible to accurately determine the net amount of current-year funds
that would be required on a specific canceled line of accounting. The Director
stated that the complexity of contracts in MOCAS, the existence of multiple lines
of accounting that cross service lines, continued use of progress payments, and the
need for a reconciliation process would cause the difficulty. DFAS also stated it
does not need to notify the fund holder until it determines it has a valid invoice
The Director agreed to implement a pilot program to test whether earlier
notification can work. The objective of the program is to reduce the time required
to obtain replacement funds. This program will run for 6 months, at which time
the results will be evaluated by the Inspector General, DoD, in conjunction with
Defense Finance and Accounting Service Columbus.

Audit Response. Even though DFAS Columbus non-concurred, the comments
are responsive. We agree with the DFAS position that the complexity of MOCAS
contracts contributes to many of the problems, including the inability of DFAS to
determine the exact net amount of current-year funds required from the fund
holder. We disagree with DFAS in its interpretation of the DoD Financial
Management Regulation concerning when notification should be made to the fund
holder. In most cases, immediate notification of the fund holder that an invoice
has arrived that needs current-year funds will provide the fund holder a better
opportunity to assist DFAS in any reconciliation. We believe there are other
benefits to early notification including prompt identification of potential duplicate
payments, development of a mechanism for the fund holder to monitor its
potential liability for current-year funds, and enhancement of communication
between the fund holder and DFAS. Notification will not prevent DFAS from
performing the reconciliation required to determine an invoice’s exact status.
However, DFAS indicated it would prefer to perform a pilot program to test
whether early notification would work. We agree with the implementation of a
pilot program to test the overall efficiency of early identification of the need for
current-year funding. We plan to work with DFAS Columbus during the
proposed pilot program.

   b. Monitor and provide on a monthly basis, a listing to the responsible
DoD Components’ financial management and comptroller offices, all
outstanding requests for current-year funds for invoices on canceled
appropriations. This listing should identify all Components not in
compliance with time frames established by the Under Secretary of Defense
(Comptroller).

Director, Defense Finance and Accounting Service, Columbus, Comments.
The Director, DFAS Columbus, partially concurred with the Recommendation.
The Director stated that DFAS was already in compliance with this

                                      7
recommendation because they had been providing a monthly list of outstanding
invoices after they were 120 days outstanding. Furthermore, the Director stated
that more than 90 percent of all requests for current-year funding were being
provided within 120 days. Therefore, providing this information on a monthly
basis would only increase the DoD Components’ financial management and
comptroller workloads. However, DFAS agreed to initiate the recommendation in
conjunction with the proposed pilot program.

Audit Response. The DFAS Columbus comments are responsive. We
acknowledge that DFAS provided listings to the DoD Components’ financial
manager and comptroller offices 120 days after receiving an invoice. The DFAS
notification procedure resulted from an OSD(Comptroller) policy memorandum,
“Invoices Awaiting Current Year Funds,” dated October 14, 1997. This policy
was rescinded after one year. However, DFAS was still following it. Personnel
in the office of the OSD(Comptroller) indicated the policy outlined in the DoD
Financial Management Regulation required fund holders to provide current-year
funding within 15 days. We believe 120 days is not a realistic period of time to
wait before notifying management of outstanding invoices. We believe monthly
notifications are warranted beginning 30 days after the initial 15-day requirement
for the fund holder to provide a funding document.

Notification to the DoD Components’ financial management and comptroller
offices will assist in obtaining current-year funding from those fund holders not in
compliance with established guidance. In addition, notification will assist in the
identification of any changes to the correct fund holder location caused by base
closures and consolidations not readily identified in the contract files located at
DFAS Columbus. We believe that this notification will increase the timeliness of
current-year funding being provided. We will follow-up on the implementation of
this recommendation as we monitor the DFAS Columbus pilot program.




                                     8
Appendix A. Audit Process

Scope and Methodology
    We concentrated our audit effort on contracts needing replacement funding
    because of their impact on the ability of DoD activities to close those contracts
    during the transition from MOCAS to DPPS. MOCAS records showed that
    3,954 contracts could require approximately $97 million for contract payments.
    Those payments cannot be made without current-year funding because the
    original funding appropriation had been canceled. Of the 3,954 contracts, DFAS
    Columbus had requested current-year funding on 471 invoices received as of
    March 19, 2001. We judgmentally selected 60 of the 471 invoices for detailed
    review. The 60 judgmentally selected invoices were valued at $3.3 million. Also,
    the invoices were the oldest on-hand at DFAS Columbus for each of the Military
    Services (Army, Navy, and Air Force) and for two other Defense activities (the
    Defense Information Security Agency and the Washington Headquarters Service).

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from August 2000 through July 2001, in accordance with generally accepted
    Government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the DFAS Shared Data Warehouse of MOCAS data to determine the activities to
    visit and to determine audit sample selection. Although we did not perform a
    formal reliability assessment of the computer-processed data, we determined that
    the data reviewed were reasonably accurate. We did not find errors that would
    preclude use of the computer-processed data to meet the audit objective or that
    would change the conclusions in this report.

    Contacts During the Audit. We visited or contacted individuals or organizations
    within DoD. Further details are available on request.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD contract management, and financial management high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40 “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We did not perform a
    full review of the adequacy of DoD controls over the funding of invoices to
    expedite the closure of contracts. DoD has repeatedly reported systemic

                                        9
    weaknesses in its financial management processes and systems. The DoD
    Statement of Assurance reported “the Department’s accounting, finance, and
    feeder systems do not fully comply with Federal financial management systems
    requirements.” MOCAS is among these systems used by DoD for financial
    related operations. Also, DoD has reported under its acquisition process and
    systems, weaknesses in acquisitions, but did not specifically identify weaknesses
    in its contract closure processes.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have conducted
    multiple reviews related to MOCAS contract payment and financial management
    issues. General Accounting Office reports may be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports may be accessed on the
    Internet at https://www.dodig.osd.mil/audit/reports.




                                        10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
     Director for Accounting Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Finance and Accounting Service
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          11
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform




                                          12
Under Secretary of Defense (Comptroller)
Comments
                                           Final Report
                                             Reference




                                            Deleted




                    13
Defense Finance and Accounting Service
Comments




                       14
15
16
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector, DoD, who contributed to the report are listed below.

     Paul J. Granetto
     Richard B. Bird
     James L. Kornides
     John K. Issel
     Clarence E. Knight III
     Peter G. Bliley
     Carlisa M. Miles
     Stephen G. Wynne
